CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
925 Harlow Rd., Springfield, OR 97477
Phone: 800-445-4483

THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, VISA PLATINUM, VISA PLATINUM (WITH INTRO RATE ON BALANCE
TRANSFERS), AND SECURED VISA PLATINUM AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING
THE USE OF YOUR VISA PLATINUM, VISA PLATINUM (WITH INTRO RATE ON BALANCE TRANSFERS), OR
SECURED VISA PLATINUM CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE
CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

%

8.75 to 18.00
VISA Platinum: __________
These APRs will vary with the market based on the Prime Rate.

N/A
VISA Platinum (with Intro Rate on Balance Transfers): __________
These APRs will vary with the market based on the Prime Rate.

%

%

8.75 to 18.00
Secured VISA Platinum: __________
These APRs will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Balance Transfers

8.75 to 18.00
VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

N/A
VISA Platinum (with Intro Rate on Balance Transfers): __________%
Introductory APR
N/A
for _____
months
N/A
After that Your APR will be __________%,
and will vary with the market based on the
Prime Rate.
8.75 to 18.00
Secured VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Cash Advances

8.75 to 18.00
VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

N/A
VISA Platinum (with Intro Rate on Balance Transfers): __________%
These APRs will vary with the market based on the Prime Rate.
8.75 to 18.00
Secured VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
·

Additional Card Fee

$5.00

Transaction Fees
·

Foreign Transaction

1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
·
·

Late Payment
Returned Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

Page 1 of 4

OTBS 016CC FRB_Web SELC (8/19)
Rev. (10/19)

DEFINITIONS. In this Agreement, the reference to ''We,” "Us," "Our'' and "Credit Union" mean SELCO COMMUNITY CREDIT UNION. The words "You" and "Your'' mean each
person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA Platinum, VISA Platinum
(with Intro Rate on Balance Transfers), or Secured VISA Platinum Credit Card issued to You by Us and any duplicates or renewals. The word "Account" means the VISA Platinum,
VISA Platinum (with Intro Rate on Balance Transfers), or Secured VISA Platinum Credit Card Account established for You under this Agreement. "Convenience Check" means
the special Account access devices that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. You may request advances on Your Account through a variety
of means which could include (but may not be limited to) telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of the means by which any advance
is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for
use of Your Account, including Finance Charges and other fees or charges described herein.

Monthly Periodic Rate
for Purchases

ANNUAL PERCENTAGE RATE
for Purchases

VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

VISA Platinum (with Intro Rate on Balance Transfers)

N/A
____________%

N/A
____________%

Secured VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

Monthly Periodic Rate
for Balance Transfers

ANNUAL PERCENTAGE RATE
for Balance Transfers

VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

VISA Platinum (with Intro Rate on Balance Transfers)

N/A
____________%

N/A
____________%

Secured VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

Monthly Periodic Rate
for Cash Advances

ANNUAL PERCENTAGE RATE
for Cash Advances

VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

VISA Platinum (with Intro Rate on Balance Transfers)

N/A
____________%

N/A
____________%

Secured VISA Platinum

0.729 to 1.50
____________%

8.75 to 18.00
____________%

Credit Card

Credit Card

Credit Card

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
PURCHASE MONEY SECURITY. For all purchase money transactions made with
Your Card, to the extent permitted by law, You grant Us a security interest in all such
personal property purchased with such Card.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under any other loan You may have with Us will secure all amounts You owe
Us now and in the future if that status is reflected in the "Truth-in-Lending Disclosure"
in any particular Agreement evidencing such debt.
CONSENSUAL SECURITY INTEREST IN SHARES ON DEPOSIT. You grant
and consent to a security interest in Your shares and deposit accounts with
Us (except for IRA and Keogh accounts) and any dividends due or to become
due to You from Us to the extent You owe on any unpaid Credit Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Secured VISA
Platinum Credit Card, You agree to give Us a specific pledge of shares or deposits
which will be equal to 105% of Your Credit Limit. In the event that You default on Your
Account, We may apply these shares toward the repayment of any amount owed on
Your Secured VISA Platinum Credit Card. You may cancel Your Secured VISA
Platinum Credit Card at any time by paying any amounts owed on such Account. To
be certain that Your entire balance and all advances are paid, any shares pledged
may not be available to You for 30 days after You have cancelled and any outstanding
balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for which
You are approved. Unless You are in default, the Credit Limits established for You will
generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.

Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any such
Account access device(s) will be mailed only to the primary Borrower at the address
that We have on file for You. We may refuse to follow any instructions which run
counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only
pay the Minimum Monthly Payments, You understand that You have the right to repay
at any time without penalty. You also understand that You will only be charged periodic
Finance Charges to the date You repay Your entire balance. You may make larger
payments without penalty. Any partial payment or prepayment will not delay Your next
scheduled payment. All payments to Us must be in lawful money of the United States.
Except as required by law, We may apply payments at Our discretion. Any unpaid
portion of the Finance Charge will be paid by subsequent payments and will not be
added to Your principal balance. You understand that any delay in the repayment of
Your unpaid balance will increase Your periodic Finance Charges and any
acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.
Minimum Payments will be an amount equal to 2.00% of Your new unpaid VISA
Platinum, VISA Platinum (with Intro Rate on Balance Transfers), or Secured VISA
Platinum balance at the end of each billing cycle, subject to the lesser of $25.00 or
Your balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). To get the
average daily balance, We take the beginning balance of Your Account each day, add
any new purchases, balance transfers, cash advances, insurance premiums, debit
adjustments or other charges and subtract any payments, credits and unpaid Finance
Charges. This gives Us the daily balance. Then, We add up all the daily balances for
the billing cycle and divide them by the number of days in the billing cycle. The Finance
Charge for a billing cycle is computed by multiplying the average daily balance subject
to a Finance Charge by the Monthly Periodic Rate.

Page 2 of 4

OTBS 016CC FRB_Web SELC (8/19)
Rev. (10/19)

You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Balance transfers and
cash advances are always subject to a Finance Charge from the later of the date they
are posted to Your Account or from the first day of the billing cycle in which the
transaction is posted to Your Account.
For VISA Platinum (with Intro Rate on Balance Transfers), balance transfer
N/A
transactions obtained during the _____
day period immediately following the date that
Your Account is established, will accrue finance charges at an introductory Monthly
N/A
Periodic Rate of _____________%
(corresponding to an ANNUAL PERCENTAGE
N/A
N/A
RATE of _____________%)
until ______________.
Upon the expiration of the
introductory rate period, the entire balance of balance transfers existing at that time
and in the future will accrue finance charges at the non-introductory variable rate
described elsewhere in this Agreement.
VARIABLE RATE. For VISA Platinum and Secured VISA Platinum, all transactions
are subject to a Variable Rate which is based on the highest Prime Rate as published
in the Money Rates section of the Wall Street Journal in effect on the 15th day of the
month that immediately precedes each Change Date ("Index") plus Our Margin. The
Index plus the Margin equals the Interest Rate. Changes in the Index will cause
changes in the Interest Rate on the first day of the billing that occurs during the first
month of each calendar quarter ("Change Date").
For VISA Platinum (with Intro Rate on Balance Transfers), all purchase and cash
advance transactions are subject to a Variable Rate which is based on the highest
Prime Rate as published in the Money Rates section of the Wall Street Journal in effect
on the 15th day of the month that immediately precedes each Change Date ("Index")
plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the
Index will cause changes in the Interest Rate on the first day of the billing that occurs
during the first month of each calendar quarter ("Change Date"). Following the
expiration of the Introductory Rate period, all balance transfer transactions are subject
to a Variable Rate which is based on the highest Prime Rate as published in the Money
Rates section of the Wall Street Journal in effect on the 15th day of the month that
immediately precedes each Change Date ("Index") plus Our Margin. The Index plus
the Margin equals the Interest Rate. Changes in the Index will cause changes in the
Interest Rate for balance transfers on the day the Introductory Rate period expires, and
subsequently, on the first day of the billing that occurs during the first month of each
calendar quarter ("Change Date").
For all VISA Cards, increases or decreases in the Interest Rate will cause like increases
or decreases in the Finance Charge and will affect the number of Your regularly
scheduled payments. For all VISA Cards, Your Interest Rate will never be greater than
18.00% and will apply to Your remaining principal balance.
LATE CHARGE. If Your payment is more than 10 days late, You will be charged the
lesser of: (a) $25.00; or (b) the amount of the minimum payment due.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the billing
currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in U.S.
Dollars, You will be charged 1.00% of the final settlement amount.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) the lesser of $25.00 or the required minimum payment
amount for the returned payment for any check (or other negotiable instrument used
for payment) which is returned unpaid; (b) $5.00 for each replacement Card You
request; (c) $5.00 for each replacement PIN You request; (d) $5.00 for each Card You
request be issued to a non-borrower (Authorized User); (e) $20.00 for each stop
payment You request on a Convenience Check; (f) $6.00 for each statement copy
You request; and (g) $15.00 per hour to research Your credit card account.
OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Account, subject to this provision, to clear any overdraft on
Your share draft account. Whether or not such transfers occur will be controlled by
this Agreement. In any event, You hold Us harmless for any and all liability which
might otherwise arise if the transfer does not occur. Overdraft protection automatically
ceases if this Agreement is ever cancelled or terminated or Your Account is in default.
ARBITRATION (EXCEPT FOR CREDIT COVERED UNDER THE MLA). This
provision does not apply to covered-loans extended to covered borrowers as defined
within the Military Lending Act (MLA). If We determine You have met these definitions,
then We will provide a military annual percentage rate (MAPR) and payment obligation
disclosure notice, in which case the following paragraph will not apply to You.

Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

If We have determined that You did not meet the above referenced definitions, then
the above described notice will not be furnished, in which case if a dispute arises
from or relates to this Agreement, or the breach thereof, any controversy or claim
arising out of or relating to this Agreement, shall be settled by arbitration
administered by the American Arbitration Association in accordance with its
Arbitration Rules and judgment on the award rendered by the arbitrator(s) may be
entered in any court having jurisdiction thereof. Claims shall be heard by a single
arbitrator, and both the place of arbitration, together with the laws governing such
arbitration, shall be the area in which Our principal office is located. Time is of the
essence for any arbitration under this Agreement. Arbitration hearings shall take place
within 90 days of filing, and awards shall be rendered within 120 days of filing.
Arbitrator(s) shall agree to these limits prior to accepting appointment. The
arbitrators will have no authority to award punitive or other damages not measured
by the prevailing party's actual damages, except as may be required by statute. The
arbitrator(s) shall award to the prevailing party, if any, as determined by the
arbitrators, all of their costs and fees. "Costs and fees" mean all reasonable preaward expenses of the arbitration, including the arbitrators' fees, administrative fees,
travel expenses, out-of-pocket expenses such as copying and telephone, court
costs, witness fees, and attorneys' fees. Except as may be required by law, neither
a party nor an arbitrator may disclose the existence, content, or results of any
arbitration hereunder without the prior written consent of both parties. All parties
hereby waive and give up all rights to a jury trial or class action relief.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
has expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting
loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against You
or any attachment or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability
to repay Your indebtedness hereunder is or soon will be impaired, time being of the
very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys’ fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available

Page 3 of 4

OTBS 016CC FRB_Web SELC (8/19)
Rev. (10/19)

through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at P.O. Box 7487,
Springfield, OR 97475. In Your letter, give Us the following information:

·
·
·

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:

·
·

Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

TERMINATION. Either You or We may cancel Your Account at any time, whether or
not You are in default. You will, in any case, remain liable to pay any unpaid balances
according to the terms of Your Account.

1)
2)

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.

Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:

ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon Your
request, a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced will
be added to Your Account balance. In the event a use of Your PIN constitutes an
Electronic Fund Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.

·

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.

After We finish Our investigation, one of two things will happen:

UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us (541) 686-8000 or (800) 4454483 during regular business hours, or (866) 262-9488 after hours, on weekends and
on holidays, or by writing to Us at P.O. Box 7487, Springfield, OR 97475. In any case,
Your liability will not exceed $50.00.

·

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.

·
·
·

·

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1)

CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after six months.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Oregon, except to the extent that such laws are inconsistent with controlling
federal law.

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advance, credit or other slips cannot be returned with the statement.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at (541) 686-8000 or (800) 4454483 during regular business hours, or (866) 262-9488 after hours, on weekends and
on holidays or write to Us at P.O. Box 7487, Springfield, OR 97475.

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

2)

3)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at P.O. Box 7487, Springfield, OR 97475.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point,
if We think You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016CC FRB_Web SELC (8/19)
Rev. (10/19)

PRICING INFORMATION ADDENDUM –
CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT

925 Harlow Rd., Springfield, OR 97477
Phone: 800-445-4483

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

8.75 to 18.00

%

VISA Platinum: __________
These APRs will vary with the market based on the Prime Rate.

N/A
VISA Platinum (with Intro Rate on Balance Transfers): __________
These APRs will vary with the market based on the Prime Rate.

%

8.75 to 18.00

%

Secured VISA Platinum: __________
These APRs will vary with the market based on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

8.75 to 18.00

VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

N/A
Introductory APR
VISA Platinum (with Intro Rate on Balance Transfers): __________%
N/A
for _____
months
N/A
After that Your APR will be __________%,
and will vary with the market based on
the Prime Rate.
8.75 to 18.00

Secured VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.
Annual Percentage Rate (APR)
For Cash Advances

8.75 to 18.00

VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.

N/A
VISA Platinum (with Intro Rate on Balance Transfers): __________%
These APRs will vary with the market based on the Prime Rate.
8.75 to 18.00

Secured VISA Platinum: __________%
These APRs will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge You
interest on purchases if You pay Your entire balance owed by the due date each month. We
will begin charging interest on balance transfers and cash advances on the transaction date.

Fees
Set-up and Maintenance Fees
·

Additional Card Fee

$5.00

Transaction Fees
· Foreign Transaction

1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
· Late Payment
· Returned Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

Page 1 of 2

OTBS 016ACC FRB_Web SELC (8/19)
Rev. (10/19)

FINANCE CHARGES. In the case of any transactions under Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average daily balance, We take the beginning balance of Your Account each day, add any new purchases,
balance transfers, cash advances, insurance premiums, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us
the daily balance. Then, We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle
is computed by multiplying the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the
new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Balance transfers and cash advances
are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the transaction is posted to
Your Account.
N/A
For VISA Platinum (with Intro Rate on Balance Transfers), balance transfer transactions obtained during the _____
day period immediately following the date that Your Account
N/A
is established, will accrue finance charges at an introductory Monthly Periodic Rate of _____________%
(corresponding to an ANNUAL PERCENTAGE RATE of
N/A
N/A
_____________%)
until ______________.
Upon the expiration of the introductory rate period, the entire balance of balance transfers existing at that time and in the future will
accrue finance charges at the non-introductory variable rate described elsewhere in this Agreement.
8.75
18.00
For VISA Platinum, all balances will be charged finances at a variable Monthly Periodic Rate of _______%
- _______%
(corresponding ANNUAL PERCENTAGE RATE
8.75
18.00
_______%
- _______%),
depending on Your creditworthiness.
8.75
For VISA Platinum (with Intro Rate on Balance Transfers), all purchase and cash advance transactions will be charged finances at a variable Monthly Periodic Rate of _______%
18.00
8.75
18.00
- _______%
(corresponding ANNUAL PERCENTAGE RATE _______%
- _______%),
depending on Your creditworthiness.
8.75
18.00
8.75
For Secured VISA Platinum, all balances will be charged finances at a variable Monthly Periodic Rate of _______%
- _______%
(corresponding ANNUAL PERCENTAGE RATE _______%
18.00
- _______%),
depending on Your creditworthiness.

VARIABLE RATE. For VISA Platinum and Secured VISA Platinum, all transactions are subject to a Variable Rate which is based on the highest Prime Rate as published in the
Money Rates section of the Wall Street Journal in effect on the 15th day of the month that immediately precedes each Change Date ("Index") plus Our Margin. The Index plus the
Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the first day of the billing that occurs during the first month of each calendar
quarter ("Change Date").
For VISA Platinum (with Intro Rate on Balance Transfers), all purchase and cash advance transactions are subject to a Variable Rate which is based on the highest Prime Rate
as published in the Money Rates section of the Wall Street Journal in effect on the 15th day of the month that immediately precedes each Change Date ("Index") plus Our Margin.
The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the first day of the billing that occurs during the first month
of each calendar quarter ("Change Date"). Following the expiration of the Introductory Rate period, all balance transfer transactions are subject to a Variable Rate which is based
on the highest Prime Rate as published in the Money Rates section of the Wall Street Journal in effect on the 15th day of the month that immediately precedes each Change Date
("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate for balance transfers on the day the
Introductory Rate period expires, and subsequently, on the first day of the billing that occurs during the first month of each calendar quarter ("Change Date").
For all VISA Cards, increases or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and will affect the number of Your regularly scheduled
payments. For all VISA Cards, Your Interest Rate will never be greater than 18.00% and will apply to Your remaining principal balance.
4.00
14.00
For VISA Platinum, the Margin applicable to Your Account will be _______
- _______
depending on Your creditworthiness.
N/A
N/A
For VISA Platinum (with Intro Rate on Balance Transfers), the Margin applicable to Your Account will be _______
- _______
depending on Your creditworthiness.
4.00
14.00
For Secured VISA Platinum, the Margin applicable to Your Account will be _______
- _______
depending on Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2019. All Rights Reserved.

Page 2 of 2

OTBS 016ACC FRB_Web SELC (8/19)
Rev. (10/19)

